Audit Report




OIG-14-043
SAFETY AND SOUNDNESS: Failed Bank Review of Texas
Community Bank, National Association, The Woodlands, Texas
July 17, 2014




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                               July 17, 2014

            OIG-14-043

            MEMORANDUM FOR THOMAS J. CURRY
                           COMPTROLLER OF THE CURRENCY

            FROM:                  Susan Barron /s/
                                   Director, Banking Audits

            SUBJECT:               Failed Bank Review of Texas Community Bank, National
                                   Association


            This memorandum presents the results of our review of the failure of Texas
            Community Bank, National Association (Texas Community), located in The
            Woodlands, Texas. The bank was chartered in 2002, and since 2005 had been a
            wholly-owned subsidiary of TCB Holding Company. The Office of the Comptroller
            of Currency (OCC) closed Texas Community and appointed the Federal Deposit
            Insurance Corporation (FDIC) as receiver on December 13, 2013. As of
            September 30, 2013, Texas Community had approximately $160.1 million in total
            assets. As of June 30, 2014, FDIC estimated the loss to the Deposit Insurance
            Fund at $10.8 million.

            Because the estimated loss to the Deposit Insurance Fund is less than $150 million,
            as set forth by section 38(k) of the Federal Deposit Insurance Act, we conducted a
            review of the failure of Texas Community that was limited to (1) ascertaining the
            grounds identified by OCC for appointing the FDIC as receiver and (2) determining
            whether any unusual circumstances exist that might warrant a more in-depth
            review of the loss. In performing our review, we (1) examined documentation
            related to the appointment of FDIC as receiver, (2) reviewed OCC reports of
            examination for the 5-year period before the bank’s failure, and (3) interviewed an
            OCC problem bank specialist.

            We performed our fieldwork from January to March 2014. We conducted this
            performance audit in accordance with generally accepted government auditing
            standards. Those standards require that we plan and perform the audit to obtain
            sufficient, appropriate evidence to provide a reasonable basis for our findings and
            conclusions based on our audit objectives. We believe that the evidence obtained
            provides a reasonable basis for our findings and conclusions based on our audit
            objectives.
OIG-14-043
Page 2

Causes of Texas Community Bank’s Failure
OCC appointed FDIC as receiver based on the following grounds: (1) the bank
experienced substantial dissipation of assets or earnings; (2) the bank was in an
unsafe or unsound condition to transact business; (3) the bank incurred or was likely
to incur losses that would deplete all or substantially all of its capital, and there was
no reasonable prospect for it to become adequately capitalized without federal
assistance; (4) the bank’s unsafe or unsound practices or conditions were likely to
cause insolvency or substantial dissipation of assets or earnings; (5) the bank’s unsafe
or unsound practices or conditions were likely to weaken the bank’s condition; (6) the
bank was undercapitalized, and had no reasonable prospect of becoming adequately
capitalized; (7) the bank was undercapitalized, and failed to submit a capital
restoration plan acceptable to the OCC within the time prescribed; and (8) the bank
was critically undercapitalized.

The primary causes of Texas Community’s failure were its (1) ineffective board and
management and (2) aggressive high-growth strategy built around commercial real
estate (CRE) loans and wholesale funding. Despite repeated criticism from OCC and
the imposition of enforcement actions, the board and management failed to
implement credit administration, underwriting, and risk management practices to
mitigate the increased risks of its CRE loan concentration. In addition, the bank
failed to adjust quickly or effectively to changing economic conditions and the
declining real estate market. These conditions resulted in the bank’s high level of
problem assets, increased losses, and diminishing capital levels, which eventually
led to its failure.

Our review of Texas Community revealed certain matters that we referred to the
Treasury Inspector General’s Office of Investigation.


Conclusion
Based on our review of the causes of Texas Community’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure that would necessitate an
in-depth review. We provided a draft of this memorandum to OCC management for
comment. In its response, OCC stated that it agreed with our conclusion as to the
causes of the failure of Texas Community and that it had no concerns with our
determination that an in-depth review of the bank’s failure is not warranted. The
response is provided as Attachment 1. A list of the recipients of this memorandum
is provided as Attachment 2.
OIG-14-043
Page 3

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or Dana
Duvall, Audit Manager, at (202) 927-9648.

Attachments
         OIG-14-043

       Attachment 1
Management Response
         OIG-14-043

       Attachment 1
Management Response
                                                       OIG-14-043

                                                     Attachment 2
                                                       Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Office of the Comptroller of the Currency

   Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
